Centers for Medicare and Medicaid Services (CMS) | Office of Inspector General
Review of Oxaliplatin Billing at Kent County Memorial Hospital for Calendar Year 2004
August 21, 2008 | Audit A-01-08-00526
Executive Summary
During calendar year 2004, Pinnacle Business Solutions, Inc., overpaid Kent County Memorial Hospital $83,000 for Medicare outpatient oxaliplatin claims.
Complete Report
Download the complete report  (PDF)
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
Return to CMS